SIGAR                                           Special Inspector General for
                                                 Afghanistan Reconstruction




COMPREHENSIVE RISK ASSESSMENTS OF MOD
AND MOl FINANCIAL MANAGEMENT CAPACITY
COULD IMPROVE OVERSIGHT OF OVER $4
BILLION IN DIRECT ASSISTANCE FUNDING



   This product was completed under SIGAR's Office of Special Projects. the Special
  Inspector Genera l's response team created to examine emerging issues in prompt,
   actionable reports to federal agencies and the Congress. The work was conducted
 pursuant to the Special Inspector General's aut horities and responsibilities under the
         National Defense Aut horization Act for FY 2008 (Pub. L. No. 110-18 1).




                                               NOVEMBER 2013
                                                          SIGAR-14-12-SPECIAL PROJECTS
December 3, 2013

The Honorable Chuck T. Hagel
  Secretary of Defense
General Lloyd J. Austin III
 Commander, U.S. Central Command
General Joseph F. Dunford Jr.
 Commander, U.S. Forces-Afghanistan and
  Commander, International Security Assistance Force
Major General Kevin R. Wendel
  Commanding General, Combined Security Transition Command-Afghanistan

This report discusses the results of SIGAR’s review of safeguards created by the Department of Defense (DOD)
to protect funds provided directly to Afghanistan’s Ministries of Defense (MOD) and Interior (MOI). We suggest
the Secretary of Defense consider conducting a comprehensive assessment to determine the financial
management capabilities and risks within the MOD and MOI and the ministries’ relationship with Afghanistan’s
Ministry of Finance (MOF). We also suggest the Commanding General, Combined Security Transition
Command-Afghanistan (CSTC-A) consider, (1) ensuring that its advisors and mentors are included in the
Capability Milestone (CM) rating process and any MOD and MOI financial management risk assessments, and
(2) reassessing CSTC-A staffing levels to ensure the CJ8 Directorate Financial Management Oversight Office
has the capacity to properly oversee direct assistance funding.
In November 2013, I discussed U.S. plans for direct assistance to the MOD and MOI with Major General
Wendel, Commanding General CSTC-A, and Major General Williamson, Deputy Commanding General, CSTC-A. I
appreciate their efforts to improve accountability of direct assistance to the ministries. I also have the utmost
confidence that they are aware of the risks that the lack of transparency and accountability to U.S. and
international direct assistance funding poses to future MOD and MOI assistance and, with it, the risk posed to
the overall mission in Afghanistan. I appreciate the efforts that CSTC-A is making to mitigate this risk and
protect U.S. taxpayer dollars. I hope that this report will support these efforts and improve MOD and MOI’s
capacity to manage and account for U.S. direct assistance funding.
We received comments on a draft of this report from CSTC-A, U.S. Central Command (CENTCOM), and the
Office of the Secretary of Defense (OSD). Their comments are incorporated in the report, as appropriate, and
reproduced in Appendices II and III.
This product was completed under the Special Inspector General for Afghanistan Reconstruction’s Office of
Special Projects, the SIGAR response team created to examine emerging issues in prompt, actionable reports
to federal agencies and the Congress. The work was conducted under the authority of Public Law No. 110-181,
as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction


SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                       Page 1
Introduction
Building increasingly self-reliant and sustainable Afghan National Security Forces (ANSF) remains a key
objective of the United States in Afghanistan. Since 2005, Congress has appropriated over $52 billion to the
DOD Afghan Security Forces Fund (ASFF) to equip, train, base, and sustain the ANSF. In order to sustain its
security forces, the Afghan government requires, in part, the financial capacity to pay salaries; procure food
and equipment; and build and maintain infrastructure for the Afghanistan National Army (ANA) and Afghanistan
National Police (ANP). In 2010, the international community, including the United States, committed to provide
at least 50 percent of development aid directly through on-budget assistance—funding that is channeled
directly through the Afghan government’s core budget. On-budget assistance is designed to allow the Afghans
more freedom to manage their own budget and to build their capacity for doing so. On-budget assistance can
take many forms, including direct assistance, 1 contributions to multi-donor trust funds, and direct budget
support. DOD reports that as of September 2013 it has committed $4.2 billion and disbursed nearly $3 billion
in direct assistance to the MOD and MOI for the sustainment of the ANSF (procurement of food, goods and
services; funding salaries; and funding minor construction). These funds are overseen by CSTC-A, the military
command responsible for the training and development of the ANSF.
As part of SIGAR’s ongoing effort to monitor federal agencies’ use of direct assistance in Afghanistan, we
initiated this project to review DOD’s safeguards for ensuring that funds provided to the MOD and MOI are
properly managed and safeguarded to protect against possibilities of waste, fraud, and abuse. This report (1)
describes the process used by DOD to assess the MOD and MOI’s capacity to manage and account for direct
assistance, and (2) assesses measures put in place by DOD to mitigate any financial management and internal
controls weaknesses identified at the MOD or MOI. We also provide our observations and propose suggestions
that may improve oversight of direct assistance funding.
To conduct this review, we examined CSTC-A documentation related to the ministerial planning and
assessment process, including Ministerial Development Plans (MDPs), ministry assessments and reviews, and
MOD and MOI Master MDPs. We also reviewed CSTC-A’s direct assistance standard operating procedures, and
DOD guidance on providing direct assistance. We interviewed CSTC-A personnel stationed at Camp Eggers in
Kabul, Afghanistan; officials from DOD’s OSD (Policy) and OSD (Comptroller); and officials from the office of the
Joint Staff. We also interviewed officials from MOI-Finance (MOI-F). We conducted this review in Washington,
D.C. and Kabul, Afghanistan from May to August 2013. This work was conducted under the authority of Public
Law No. 110-181, as amended; the Inspector General Act of 1978; and the Inspector General Reform Act of
2008.


Summary
CSTC-A has committed $4 billion and disbursed $3 billion in direct assistance to the MOD and MOI. CSTC-A
utilizes the Capability Milestone (CM) rating system and the related MDPs to assess the financial management
capacity and controls of separate offices within the ministries with responsibility for managing and executing
direct assistance funding. However, the current process examines the capacity and controls of individual
offices within the ministries and does not include an understanding of the capabilities and risks associated
with executing funds across the ministries and within the Afghan government budget and execution processes.
The current process does not enable CSTC-A to determine core functional capacity across each ministry,
provide trainers and decision makers with a holistic understanding of systemic shortcomings of each ministry’s



1DOD organizations refer to direct assistance as direct contributions. For the purposes of this report, we use the term
direct assistance.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                 Page 2
overall financial management capacity, or identify risks associated with capacity weaknesses. CSTC-A does
conduct financial risk assessments for some, but not all, Afghan budget requirements for direct assistance, as
part of the budget process required by its standard operating procedures. However, these risk assessments
are limited to financial risks associated with the procurement of a particular good or service. CSTC-A also does
not incorporate in its assessment process any financial management assessments of other Afghan institutions
involved in the budget process, such as the Ministry of Finance (MOF). Further, CSTC-A has never disapproved
a direct contribution expenditure based upon risk assessment findings. In addition, the CM ratings of individual
ministry offices are largely subjective and cannot be compared over time. Furthermore, the CSTC-A unit
responsible for building financial management capacity in the ministries and providing oversight for U.S. direct
assistance funding—the CJ8 Directorate—has no formal role in the CM rating process.
Even without a comprehensive, objective risk assessment of MOD and MOI’s financial management
capabilities, CSTC-A has identified some financial management and internal control challenges at the two
ministries, such as weak accounting practices and ineffective training on accounting systems. CSTC-A has
implemented several measures to address the financial management and internal control weaknesses it has
identified. Measures include (1) the realignment of CSTC-A’s advising and mentoring model from an office-
based model to a functional advising model, 2 (2) placement of Afghans with financial management expertise
within the ministries to help build expertise and capacity, (3) increased coordination with International Security
Assistance Force (ISAF) personnel working directly with the MOF, and (4) a proposed process to withhold direct
assistance in the event that unauthorized spending is discovered. As part of its oversight procedures, CSTC-A
also requires audits of the Afghan electronic accounting database—--its budget accounting system—and of
various Afghan government financial records including related contracts, payment vouchers, goods received
notifications, invoices, payroll allocation forms, and payroll summaries.
We are making one suggestion to the Secretary of Defense and two suggestions to the CSTC-A Commander to
assist in more accurately assessing and mitigating weaknesses in the financial management and internal
control of direct assistance funds provided to the MOD and MOI. OSD concurred with our suggestion that the
Secretary of Defense consider conducting a comprehensive assessment of MOD and MOI financial
management capacity. In commenting on a draft of this report, CSTC-A concurred with our suggestion to
ensure that CJ8 mentors and advisors are included in the assessment process. CSTC-A also concurred with our
suggestion to reassess CJ8 staffing levels to ensure adequate capacity to fulfill its oversight mission. However,
CSTC-A stated that it conducts risk assessments in the form of CM ratings as well as using CSTC-A’s and
outside agency’s reports and audits. CSTC-A also highlighted its plans to move from an office-based to a
functionally-based mentoring and advising model and highlighted its plans to implement “levers” to ensure
better budgetary controls in the ministry.


Background
The ANSF is comprised of the ANA and the ANP. The MOD is responsible for building and sustaining the ANA,
and the MOI is responsible for building and sustaining the ANP. 3 In a February 2011 memo, DOD approved




2 Under a functional advising model, advisors would be assigned to a functional category as opposed to an individual

ministry office. For example, a finance or acquisition advisor would work with various ministry offices with procurement and
acquisition functions within the Ministry as opposed to a single acquisition-related office.
3ANP includes the Afghan Uniformed Police, Afghan National Civil Order Police, Afghan Border Police, and Afghan Counter-
Narcotics Police.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                 Page 3
direct assist ance fu nding for t he MOD and MOl t o "build t heir capabilit y and support Afghan security forces." 4
The DOD memo aut horized d irect assistance so the MOD a nd MOl could procure f ood. goods. a nd services:
fund salaries: and fund minor construction. CSTC-A is responsible for t he assessment . ma nagement . a nd
disbursement of these direct assistance funds. The 2011 DOD memo requires CSTC-A. in t he development of
its annual d irect assistance pla n for t he two ministries. to consider (1) t he capabilit y of t he MOD and MOl t o
execute increasing sums of contributions and (2 ) t he capability of CSTC-A t o provide sufficient oversight and
partn ering. CSTC-A's standard operating procedures for d irect assistance designat es CSTC-A's CJ8 Directorat e
as t he compt roller for t he CSTC-A budget and the unit responsible f or building fi nancial management capability
in the m inistries a nd providing oversight of U.S. direct assistance funding to the MOD and MOl. 5

Since 2011. CSTC-A has provided bOth ministries wit h direct assist ance fu nding using bilateral assistance or
mult ilateral assist ance through a United Nations (UN) t rust fu nd. As of September 20 13. DOD reported that it
had committed $4.2 billion in t ot al direct assistance to t he two ministries and disbursed nearly $3 billion.
Table 1 provides DOD's reported d irect assist a nce disbursement s to the MOD and MOl by Afghan solar year
and Western calendar year. as of September 2 0 13 .6 It is likely t hat additional DOD fu nding requests t o support
t he ANSF will include direct assistance fund ing.


Table 1: Direct Assistance Disbursements to the MOD and MOl, as of September 2013 (USD in millions)

                 Solar year l.390      Solar year l.39l.     Solar year l.392       Solar years l.390-
 Afghan
                  (March 20l.l.-        (March 20l.2 -       (January 20l.3 -      l.392 (March 20ll-
 Ministry
                  March 20l.2)         December 20l.2)       December 20l.3)         December 20l.3)

  MOD                $426.8                $637.7                 $947.l.                 $20l.l..6

        3
  MOI                $325.6                $l.68.5                $49l..7                 $985.8

 Total               $752.4                $806.2                $1,438.8                 $2,997.4

a A portion of U.S. direct assistance funding for the MOl is provided by DOD through the multilateral UN Law and Order Trust
Fund for Afghanistan.
Source: CSTC-A

Because t he MOF ma nages and executes the Afghan budget. CSTC-A provides direct assistance fund ing for t he
ANSF t o an MOF account at Da Afghanistan Bank (Afghanist an's central bank). The MOD and MOl have
procurement authority f or these fu nds. but the MOF is responsible for t he account cont rols and payment
transfers made with these funds. See Appendix I f or more inf ormation about t he distribution of DOD direct
assistance funds t o t he t wo Afghan ministries.




4 Under Secretary of Defense (Comptroller). memorandum, "Interim Guidance on Afghanistan Security Forces Fund (ASFF)

Contributions to the Government of the Islamic Republic of Afghanistan (GIRoA), • February 4 , 2011, p. 2.
s NATO Training Mission Afghanistan, Afghanistan Security Forces Funds Direct Contributions Standard Operating
Procedures. October 7. 2012.
s The solar Hijri calendar is the official calendar of the government of Afghanistan. CSTC-A disburses direct assistance
funding to the Afghan government based upon the Afghan government budget cycle. Solar Year 1391 ended in December
2012. as opposed to March 2013 in order to facilitate a change in fiscal year.




SIGAR-l.4-l.2-5P Direct Assistance to Afghanistan 's Ministries of Defense and Interior                              Page4
CSTC-A’s Capability Assessments of the MOD and MOI
CSTC-A deploys advisors to the MOD and MOI to work with Afghan officials in building their ministerial
capability. 7 CSTC-A has identified the ministry offices that have financial and/or acquisition authority. MOI
offices include Facilities, Finance, Logistics, and Procurement. MOD offices include Finance; Acquisition,
Technology and Logistics; the Construction and Property Management Division; General Staff G8 (finance); and
General Staff G4 (logistics). CSTC-A advisors use the CM rating system to measure and track the progress
made by each ministry office in improving its capability to operate independent of Coalition assistance. The CM
rating itself is determined by criteria defined in each office’s MDP. Six CM ratings are used to indicate the
degree of Coalition assistance required for a given unit or ministerial office to fulfill its mission. 8 Table 2
describes the six CM ratings, as determined by CSTC-A.
                                                         CSTC-A assigns a senior advisor to the director of each
Table 2: CSTC-A’s Capability Milestone Rating
                                                         major office within the MOD and MOI. The CSTC-A senior
System for the MOD and MOI
                                                         advisor and his/her subordinate advisors work with the
    CM       Coalition Assistance Required to            directors and the directors’ staff. The senior advisor and
    Rating   Fulfill Mission                             subordinate advisors are responsible for preparing the
                                                         MDP and determining the CM rating for the ministry office.
    CM-1A    Capable of autonomous operations.           The MDPs define benchmarks the offices must achieve to
                                                         reach each CM. 9 According to CSTC-A senior advisors and
    CM-1B    Capable of executing functions with         personnel, MDPs are regularly revised by senior advisors
             Coalition oversight only.                   in order to reflect changes in the offices’ staffing,
    CM-2A    Capable of executing functions with         objectives, or responsibilities.
             minimal Coalition assistance.           To determine the CM rating, each senior advisor compares
  CM-2B       Can accomplish its mission but         the capability of the office to criteria contained in the
              requires some Coalition assistance.    office’s MDP. According to senior officials at CSTC-A, once
                                                     a senior advisor has determined the CM rating, the
  CM-3        Cannot accomplish its mission without  respective ministry’s Ministerial Development Board
              significant Coalition assistance.      (MDB) verifies and approves it. CM ratings are verified and
  CM-4        Exists but cannot accomplish its       approved by the MDB once a quarter for the MOD and
              mission.                               once every six months for the MOI. According to the
  Source: CSTC-A                                     Director of Ministerial Development at CSTC-A, the MOI
                                                     development board consists of the CSTC-A Deputy
Commander for Police Development, the Ministry Chief of Staff, the Ministry Director of Police Development, a
representative from the European Union Police Mission Afghanistan, and a representative from the ISAF Joint
Command. The CM rating for each MOI office is reviewed by the board every six months. According to a senior
CSTC-A official, CSTC-A’s Chief of Advisors-Deputy Command for Army Development serves as the sole member
of the MOD ministerial development board. The Chief of Advisors reviews and approves CM ratings for every
MOD office. For both the MOD and MOI, a flag officer, usually the CSTC-A Deputy Commander, must approve
any recommendation for a CM-1B or CM-1A rating.




7Senior advisors and mentors can be federal civilian employees or contractors.
8The CM rating system is similar, but not identical, to the Regional Command ANSF Assessment Report, a CSTC-A
assessment of the capability and readiness of Afghan military units. SIGAR is conducting an audit of the system used to
assess Afghan military units’ capability and readiness and expects to release a report later this year.
9 For example, the most recently approved MDP for MOI-Finance states that“75% of ANP personnel are paid accurately and

on-time” for the office to reach CM-3.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                Page 5
CSTC-A Conducts Requirements-Focused Financial Risk Assessments but Has Not
Conducted a Comprehensive Risk Assessment of the Afghan Government’s Capacity to
Manage and Account for U.S. Direct Assistance Funding Provided for the ANSF
Although the process of allocating and executing direct assistance for the ANSF funding involves three
separate ministries—the MOD, MOI, and MOF—and several offices within each of the ministries, CSTC-A has not
conducted a comprehensive risk assessment that includes an assessment of the capacity and controls for
financial management within the MOD and MOI or between the two ministries and the MOF. According to CSTC-
A officials responsible for overseeing direct assistance funding, CSTC-A utilizes the CM rating system to assess
the financial management capability and controls of separate offices within the ministries that have
responsibility for managing and executing direct assistance funding. The CM rating system is intended to
provide only a measure of capabilities for the purposes of establishing functional offices with defined roles
within the ministry. This system does not provide CSTC-A with an overall assessment of the capacity to manage
and account for funds across the multiple offices within each ministry. According to government standards for
internal control, 10 effective financial management should include an assessment of core functions, including,
but not limited to:
       •   Accountability and control environment,             Figure 1: Average CM Rating for MOI and MOD Offices
       •   Financial management and accounting                 with Financial Management Responsibilities, 2011 –
           capacity,                                           First Quarter 2013
       •   Procurement and asset management
           capacity,
       •   Contracting process and mechanisms, and
       •   Management of personnel and payroll.
CSTC-A has identified five offices in the MOD and four
offices in the MOI that are “key nodes for resource
management and acquisition.” 11 Figure 1 illustrates
the average CM rating for these offices from the
beginning of 2011 through the second quarter of
2013. According to the CM rating process, offices in
the MOI experienced a spike in capability in the
beginning of 2012 but have not progressed since the
beginning of the third quarter of 2012. The CM
ratings of MOD offices with financial management
responsibilities decreased slightly over the second
half of 2012.                                                   Source: CSTC-A

CSTC-A advisors to the MOD and MOI offices conduct
narrowly-scoped financial risk assessments for direct assistance-funded budget requirements, as required by
CSTC-A’s direct assistance standard operating procedures. Risk assessments must be sent to CSTC-A’s CJ8
commander for approval as part of the direct assistance budget justification process. These risk assessments
are focused on the risk to funding/procured goods and do not provide a risk assessment of financial
management capabilities. The financial risk assessments are narrow in scope, focus on funding for single


10   Government Accounting Office, Standards for Internal Control in the Federal Government, November 1999.
11MOI offices include Facilities, Finance, Logistics, and Procurement. MOD offices include Finance, Acquisition Technology
and Logistics; Construction and Property Management Division; the Afghan National Army General Staff G8; and the Afghan
National Army General Staff G4.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                               Page 6
direct contribution requirements, and are inconsistently executed. CJ8 has reportedly never disapproved a
direct contribution expenditure based upon risk assessment findings.
According to the CSTC-A direct assistance standard operating procedures, a risk assessment template is
included in a yearly fragmentary order from the CJ8 to advisors requesting requirements identification. CSTC-A
procedures require that senior advisors fill out and submit this template to CJ8 for each specific budget
requirement. The risk assessment template consists of a single PowerPoint slide and provides spaces where
the advisor should briefly describe (1) the likelihood of funds or procured goods for a single direct assistance
project being misused or pilfered, (2) the impact of the requirement upon accomplishing the unit’s mission,
and (3) potential risk mitigation measures for that specific requirement. Despite the required submission
under CSTC-A's direct assistance procedures, we found that CJ8 did not receive risk assessment submissions
for all direct assistance budget requirements.
During this review, the CJ8 was only able to identify risk assessments conducted for MOD budget requirements
for solar year 1392 (January – December 2013), amounting to only $615.9 million, or 49 percent of the total
MOD direct assistance budget contribution. CSTC-A reported that no risk assessments were turned in by CSTC-
A advisors for MOI direct assistance requirements. Although $294.7 million of U.S. direct assistance has been
committed for MOI payroll through the multilateral UN Law and Order Trust Fund for Afghanistan, no risk
assessments were conducted for the remaining $453 million in bilateral U.S. direct assistance funding
budgeted for the MOI.

CSTC-A’s Direct Assistance Process Does Not Include Assessments of MOF Financial Management Capabilities
According to a CSTC-A official who regularly works with the MOF, although the MOF plays a key role in the
management and execution of U.S. direct assistance funding provided for the ANSF, the CSTC-A assessment
process does not incorporate any financial management assessments of the MOF. According to CSTC-A senior
advisors and CJ8 officials, the capabilities of the MOF are not included in their decision-making regarding
direct assistance. All interactions between CSTC-A and the MOF are limited to one designated liaison and,
when necessary, direct engagement by CSTC-A senior leadership. Although the U.S. Agency for International
Development (USAID) has conducted pre-award assessments for the MOF and several other ministries, we
were informed in June 2013 that CSTC-A was not aware of USAID’s assessment of the MOF. 12 At that time we
suggested that CSTC-A obtain information from USAID regarding its assessment and related risk mitigation
measures for its consideration in the direct assistance process. 13 In September 2013, a CJ8 official informed
us that they had recently obtained the USAID assessment and planned to engage with USAID personnel
regarding any identified financial management capacity gaps at the MOF.
Even without any formal information regarding risk assessments of MOF financial management, CSTC-A
officials reported that they have encountered examples of financial management challenges at the MOF
impacting the direct assistance process. Several CSTC-A officials told us that accounting practices with the
MOF have impacted transparency and controls over the funds. For example, the MOF’s treasury office uses a
different set of accounting codes than its budgeting office. This practice of utilizing different accounting codes
complicates financial planning and reconciliation of expenditures between the two departments.




12 USAID hired the Ernst and Young accounting firm to “assess whether MOF has sufficient financial management systems

and capacity to manage USAID funds in accordance with [Afghan Government] requirements.” The intention was to
determine the risks to U.S. direct assistance funding provided to the Ministry of Finance. The final assessment was
completed in January 2013.
13 SIGAR is conducting a separate audit of USAID’s assessment of 15 ministries, including the MOF. That report will be out
later this year.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                Page 7
CSTC-A officials also noted that the MOF’s resistance to using more detailed accounting codes, which are
intended to provide greater visibility over the use of U.S. direct assistance funds, has reduced the transparency
over the use of these funds. CSTC-A officials stated that in early 2013 the MOF reverted to using three-digit
accounting codes for ANSF funding categories, rather than the five-digit accounting code, as previously
agreed. 14 Budgeting and tracking expenditures using a five-digit accounting code is labor intensive for the
ministries, but it also provides more detail about how funds are spent, according to CSTC-A officials. For
example, the MOF’s three-digit code for “repairs and maintenance” allows for any repairs or maintenance,
regardless of the funding source, to be tracked under this accounting code. Under this code, there are 19 five-
digit codes providing greater specificity regarding how the funds are used. These five-digit codes also allow
CSTC-A to determine if the expenses were in categories eligible for U.S. direct assistance. For example, sub-
categories listed under the five-digit codes for “construction equipment,” “energy generating equipment,” and
“water supply and canals” are eligible for U.S. direct assistance, while “broadcasting equipment” and “military
equipment” sub-categories are not eligible for direct assistance. Due to the amount of labor involved in using
the five-digit codes, the MOF refused to use them to track expenditures. In September, CSTC-A informed us
that MOF is now using the five-digit codes for the tracking of expenditures, as requested, but not for budgeting
purposes. CSTC-A officials indicated that they were satisfied with this arrangement as it provided CSTC-A with
greater visibility on the expenditures of these funds.

CSTC-A’s CM Rating System is Largely Subjective and Does Not Provide A Good Comparison of Improvement Over Time
The CM ratings of individual ministry offices are largely subjective and cannot be compared over time. The
MOD Master Ministry Development Plan 15 states, “Due to the subjective nature of operational and strategic-
level advising, imposing a system of rigorous, authoritative, and valid progress measurements is difficult when
working with MoD.” Reportedly, CSTC-A Senior Advisors to the MOD and MOI regularly revise the metrics used
for evaluation within the individual MDPs. As a result, the metrics used to provide a CM rating for each
evaluated ministry office has changed multiple times over the years. According to the CSTC-A senior advisors
we met with, these revisions to the MDPs are made to incorporate changing conditions and lessons learned.
Different advisors may have different interpretations of the same criteria. According to a CSTC-A official, the
CM rating is a combination of quantitative and qualitative metrics and therefore includes some subjectivity. For
example, in November 2012, the newly arrived senior advisor downgraded the MOD Acquisition, Technology,
and Logistics Office’s CM rating from 1B to 2B. The MDP objective stated that this office was “responsible for
procuring all classes of supply necessary to responsively meet ANA requirements.” However, at that time, the
MOD was only responsible for procuring three classes of supply and those classes were considered simplistic
and not representative of “all classes of supply.” Because the MOD had not yet procured the more complex
supplies, the new Senior Advisor concluded that the previous advisor’s 1B CM rating did not accurately depict
the MOD’s ability to meet the objective. 16




14 According to the commitment letters for ANSF funding, signed by the CSTC-A Commanding General and the Ministers of

Finance, Interior, and Defense, it was agreed that the more detailed five-digit accounting codes would be used to account
for budgeting and expenditures, rather than three-digit accounting codes.
15   The Master Ministry Development Plan provides guidance for senior advisors developing their respective MDPs.
16 In a response to a draft of this report, CSTC-A emphasized that there is a defined process for reviewing and changing CM

ratings that include decision points for senior CSTC-A officials. CSTC-A stated that the CM rating downgrade described here
followed the appropriate process and received all of the required approvals from CSTC-A officials.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                Page 8
CSTC-A Directorate Responsible for Financial Management Capacity Building and Direct Assistance Oversight Has No Formal
Role in CSTC-A’s Assessment Process
CSTC-A’s CJ8 Directorate, the unit responsible for building financial management capacity in the ministries and
providing oversight for U.S. direct assistance funding, does not have a formal role in the CM rating process.
Rather, the CJ8 Directorate Financial Management Oversight Office (FMO) is responsible for overseeing direct
assistance provided to the MOD and MOI and building capacity within the MOD and MOI finance offices.
Personnel from the CJ8 FMO serve as advisors and mentors to the staff of the MOD and MOI finance offices.
Although the CJ8 FMO may have significant experience with the ministry finance office staff, the CJ8
Directorate has no formal role in CSTC-A’s CM rating assessment process. One CJ8 advisor for payroll
recounted that, while traveling to the provinces to inspect the ministry’s provincial capacity, serious gaps were
identified in payroll accountability. The advisor also identified literacy as a systemic capacity gap throughout
the ministries. For example, he found that the senior officer in charge of payroll for the Afghan Civil Order
Police was illiterate and could not read the payroll documents that he was required to sign and approve. Gaps
in payroll accountability and the appointment of senior officers who lack basic literacy skills to positions of
financial authority present a significant financial management risk for the MOI. Salary, wages, and food
expenses represented nearly 63 percent of the total solar year 1392 (January - December 2013) MOI budget.
However, according to the CJ8 advisor, these factors were not included in the CM rating for the MOI finance
office and he was not consulted in its payroll capability assessment.

The designated CSTC-A senior advisor, responsible for developing the MDP for the office and recommending a
CM rating, reports the CM rating recommendations through an advising command. The senior advisor has a
liaison role with CSTC-A’s CJ8 office but does not interact with the advisors and mentors from the FMO,
according to the FMO commanding officer and several advisors and mentors from FMO.


CSTC-A Has Taken Steps to Mitigate Financial Management Weaknesses Identified at the
MOD and MOI and Improve Its Oversight of Direct Assistance Funds but It Is Impacted by
Staffing and Security Challenges
According to CSTC-A’s standard operating procedures, oversight of direct assistance funds includes the
requirement for an audit of the Afghan electronic accounting database. It also requires an audit of various
Afghan government financial records including related contracts, payment vouchers, goods received
notifications, invoices, payroll allocation forms, and payroll summaries. Per CSTC-A’s standard operating
procedures, CJ8 personnel are required to examine financial records associated with any direct assistance in
order to ensure that U.S. funds were spent on eligible goods and services. 17 When CJ8 personnel identify an
inappropriate expenditure, CSTC-A command takes action to rectify the error by sending a letter to the
respective Afghan Minister requesting rectification of the funds, either through correcting an accounting error
or expenditure payment with Afghan government funds. If the inappropriate expenditure is not addressed by
the ministry, CSTC-A has the ability to hold back equivalent funding from future direct assistance
disbursements. For example, in April 2013, the CSTC-A Commanding General sent a letter to the Afghan
Minister of Defense requesting reconciliation for 151 transactions worth $2,832,938 identified by a CSTC-A
audit as unauthorized transactions of U.S. direct assistance funds.
Staffing and security challenges limit CSTC-A’s oversight capabilities, according to CSTC-A officials. Specifically,
the CJ8 Directorate has reported that it is understaffed for its capacity-building and oversight responsibilities


17 According to the authorizing memo and CSTC-A commitment letters, U.S. direct assistance can be spent on certain
classes of goods and services including food, salaries, fuel, and uniforms.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                               Page 9
and that it lacks financial auditing experience among its personnel. In addition, the security conditions have
impacted CSTC-A’s ability to advise and assess the MOI and MOD.
    •    CJ8 Is Understaffed Relative to Its Oversight Responsibilities: A senior CJ8 officer stated that the
         organization is understaffed relative to its responsibilities. CJ8 is currently staffed by 40 personnel
         (military and contractors) and its financial management oversight activities for direct assistance funds
         are limited to verification of proper accounting for these funds by the ministries. While CJ8 regularly
         identifies and seeks rectification for improperly coded or expended funds, CJ8 does not have the
         capacity to verify proper spending through spot checks or other inspections. To execute its oversight
         function, CJ8 reviews entries in the electronic accounting system. According to one CJ8 official, “you
         have to assume the data is sound; so it’s simply a matter or looking for mistakes.” As a result, if
         fraudulent expenditures are properly coded within the accounting system, it is unlikely that CJ8 will
         identify the fraudulent activity. The official stated that he believes it to be possible that corrupt
         practices have occurred where fraudulent expenditures have been properly coded into the electronic
         accounting system. Additional reductions in CJ8 staff will likely degrade even these basic oversight
         functions. By December 2013, staffing is expected to drop to 29 total positions as part of the military
         drawdown. In September 2013, CSTC-A officials indicated that they have raised concerns about low
         staffing levels with CENTCOM and that hiring more contract personnel may be considered if a
         sufficient number of military personnel cannot be maintained.
    •    CJ8 Lacks Financial Auditing Experience: The majority of CJ8 personnel who conduct oversight of
         direct assistance are not trained financial auditors, according to CJ8 officials. Most of the military
         officers assigned to CJ8 are budget and acquisition specialists, rather than trained auditors. According
         to CJ8 personnel, these officers must learn a new task and become familiar with the Afghan
         government budgeting, acquisition, and accounting system. CJ8 personnel stated there is a long
         period of learning before officers are fully acquainted with all aspects of the job. Frequent staff
         rotations compound the challenges which lead to potential deficiencies in CJ8’s oversight capacity.
    •    Need for Increased Security Measures Impacts CSTC-A’s Ability to Access the MOI and MOD: CSTC-A
         issued new orders requiring increased security measures for all CSTC-A visits to Afghan ministries,
         reducing interaction between advisors and their Afghan mentees. The policy, which was put into place
         in response to attacks by Afghan soldiers and police officers on their Coalition advisors and partners,
         requires uniformed military or government civilian to provide security for all Coalition attendees.
         According to senior advisors, this has limited the amount of time they spend on-site at the ministries
         and has prevented individuals in CJ8 and other staff offices from performing their primary duties.
Oversight activities limited by low staffing levels, a lack of financial auditing expertise, and limitations to access
due to insecurity have the potential to allow erroneous and fraudulent use of U.S. direct assistance to remain
undetected, potentially leading to waste and distorting assessments of MOD and MOI financial management
capacity.
CSTC-A has recognized that transparency and accountability in the execution of direct assistance funding is
crucial to maintaining U.S. and international donor confidence that funds are being spent appropriately. CSTC-A
also acknowledges that unaddressed fraud, waste, and corruption may lead donors to question the value of
continued assistance to Afghanistan, resulting in a reduction or termination of ANSF contributions. CSTC-A has
identified some financial management and internal control challenges at the MOD and MOI, such as weak
accounting practices and insufficient training on accounting systems. In response to the weaknesses
identified, CSTC-A has implemented several measures to improve oversight for direct assistance. These
measures include (1) the planned realignment of CSTC-A’s advising and mentoring model from an office-based
model to a functional model, (2) placement of Afghans with financial management expertise within in the
ministries to help build expertise and capacity, (3) increased coordination with ISAF personnel working directly
with the MOF, and (4) “levers” included in the direct assistance commitment letters to the MOD and MOI to
encourage transparency and accountability through a codified process to withhold direct assistance in the
event that unauthorized spending is discovered.

SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                          Page 10
    •    Realignment of CSTC-A’s advising and mentoring model from an office-based model to a functionally-
         based model: CSTC-A’s current mentoring and advising model focuses on single offices within the
         ministries. CSTC-A advisors and mentors are assigned to a directorate or office within each ministry.
         For example, a defense acquisition advisor will advise the MOD Acquisition, Technology, and Logistics
         Office. However, financial management capacity is a function of many offices working together. To
         better address cross-cutting capabilities, CSTC-A is planning on moving from an organizationally-based
         advising model to a functionally-based advising model. According to senior CSTC-A officials, under the
         proposed realignment, advisors would work in teams under functional areas, such as finance or
         logistics. In September 2013, CSTC-A officials informed us that the reorganization would be completed
         by January 2014.
    •    Placement of Afghans with financial management expertise within the ministries to help build
         expertise and capacity: CSTC-A is providing funding for an Afghan initiative to build financial expertise
         and capability by placing financial management subject matter experts (SMEs) in the MOD and MOI.
         According to CSTC-A, the SMEs are highly-educated professionals with experience in financial
         management that provide training to ministry personnel and assist in the development of financial
         plans and policies. According to CSTC-A advisors, the SMEs face some institutional resistance,
         specifically because they are young and well-paid compared to other ministry personnel and many
         have spent a significant amount of time outside of Afghanistan. Reportedly, many have encountered
         some resistance from senior officials and others in the ministry to their proposed changes for
         improving financial management policies and processes. The use of SMEs is likely to continue only for
         the duration of Coalition financial assistance, as the ministries are unlikely to support their salaries
         without foreign assistance.
    •    Increased coordination with ISAF personnel working directly with the Afghan MOF: In an April 2013
         letter to the Minister of Finance, the CSTC-A Deputy Commanding General requested the
         establishment of a CSTC-A liaison cell at the MOF. According to the letter, the liaison cell was intended
         to “improve coordination on budget, payment, and banking issues as well as develop a better
         understanding of systems interaction.” In September 2013, CSTC-A informed us that the planned
         liaison cell had been cancelled. Instead, CSTC-A personnel had begun to participate in weekly
         coordination meetings with ISAF non-security ministry advisors who work directly with the MOF.
    •    Defined process for withholding direct assistance in the event that unauthorized spending is
         discovered: According to senior CSTC-A leadership the CSTC-A Financial Management Oversight
         Branch is defining a process to enforce budgetary controls through a “throttle” that will constrict the
         flow of direct assistance funds upon the discovery of significant erroneous or fraudulent expenditures.
         This process is intended to allow CSTC-A personnel the flexibility to escalate punitive withholdings in
         response to unauthorized use of funds and to identify training requirements for the ministries.
         According to the plan, if a significant discrepancy is discovered through audits and is not rectified,
         future disbursements of direct assistance will be withheld in the affected expenditure category in
         escalating amounts according to a defined schedule. According to a senior official, on an ad-hoc basis,
         CSTC-A has implemented a similar policy for withholding funds when inappropriate expenditures are
         identified—usually only for the amount of the unauthorized purchase. This new plan defines the
         schedule, makes intention to withhold funds explicit, and adds the punitive element of escalating
         withholdings. Encouragingly, draft commitment letters for SY1393 (January – December 2014) direct
         assistance funding to the ministries include strict requirements for budgetary controls and set out the
         process and schedule by which funds will be withheld in the event of inappropriate expenditures.
         Earlier commitment letters did not include such strictly defined budgetary control requirements. In
         order to mitigate the risk of limited auditing capacity at the CJ8 to the efficacy of the “throttle,” CSTC-A
         senior leadership plans to leverage all U.S. and international oversight capacity available to ensure
         that inappropriate expenditures are identified. If implemented consistently by CSTC-A, we believe that
         this process could be an effective tool in improving budgetary controls at the MOD and MOI.


SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                         Page 11
Conclusion
Direct assistance brings with it a number of risks. Funds provided through direct assistance are typically
subject to less U.S. and donor community oversight than funds provided through projects implemented by U.S.
and donor community government agencies. Reduced oversight leaves direct assistance funds particularly
vulnerable to waste, fraud, and abuse. Because of the well-documented concerns about the Afghan
government’s capacity to manage direct assistance funds, it is especially important for the United States to
accurately assess the capacity of Afghan ministries to assume responsibility for U.S. direct assistance funds
provided for the ANSF. Such assessments should help inform direct assistance funding decisions. Although the
United States has already provided nearly $3 billion in direct assistance for the ANSF and DOD plans to provide
increased amounts of direct assistance for the ANSF, a comprehensive risk assessment has never been
conducted by DOD to determine the financial management capacity or associated risks for U.S. funds. Those
who work the closest with these ministries—CSTC-A advisors—are aware of weaknesses in capacity at the
defense and interior ministries, but they have limited visibility or influence over the ministries’ overall financial
management process. Without a comprehensive assessment, DOD cannot fully identify the risks to U.S. funds
nor develop sufficient mitigation measures to address those risks. Consequently, DOD cannot be assured that
the funds provided directly to the Afghan government to fund and equip the ANSF are sufficiently protected
and used as intended.
We understand that the CM rating system and the associated MDPs were designed to track and facilitate the
development of the capability of individual offices within each ministry, but they were not designed to produce
an aggregate assessment of ministerial capability as a whole, financial or otherwise. Therefore, the current
assessments do not provide a complete picture of overall financial management capacity.


SUGGESTIONS

To comprehensively assess the capacity of the Afghan government to manage and account for U.S. direct
assistance funds provided for the ANSF, we suggest that the Secretary of Defense consider:

    1. Conducting an independent assessment that would comprehensively assess financial management
       capabilities and risks within the Afghan Ministries of Defense and Interior and in relation to the Afghan
       MOF. Such an assessment could include:

             a.   Identifying the capabilities for core financial management functions within the MOD and MOI,
                  to include accountability and control environment, financial management and accounting
                  capacity; procurement and asset management capacity; contracting process and
                  mechanisms; and management of personnel and payroll;

             b.   Identifying major risks and mitigation strategies deemed necessary for ensuring that the
                  ministries are able to manage U.S. direct assistance; and

             c.   Incorporating the results of USAID’s assessment of MOF.

To strengthen CSTC-A’s oversight capabilities to safeguard U.S. direct assistance funds provided for the ANSF,
we suggest that the Commander, CSTC-A consider:

    2. Ensuring that CSTC-A CJ8 advisors and mentors are included in the CM rating process and any
       financial management risk assessment for the MOI and MOD.

    3. Reassessing CSTC-A CJ8 staffing levels to ensure the branch has the capacity to properly fulfill its
       oversight responsibilities for ANSF direct assistance funding.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                         Page 12
Agency Comments and Our Response
We received comments on a draft of this report from CSTC-A, CENTCOM, and OSD.
In the agency review draft of this report, the first suggestion was addressed to CENTCOM. In its response,
CENTCOM non-concurred with the suggestion on the grounds that the command does not distribute or provide
accounting support for the Afghan Security Forces Fund, the fund from which direct assistance to MOD and
MOI are disbursed. CENTCOM stated that the suggestion should go to the Secretary of Defense. We agreed
with their response and are making the suggestion to the Secretary of Defense. OSD concurred with the
suggestion to arrange for a comprehensive assessment that would identify core financial management
function and major risks to U.S. direct assistance funding within the MOD and MOI.
In its response, CSTC-A concurred with our suggestion to ensure that CJ8 mentors and advisors are included in
the assessment process. CSTC-A also concurred with our suggestion to reassess CJ8 staffing levels to ensure
adequate capacity to fulfill its oversight mission. However, CSTC-A stated that the command does conduct risk
assessments of direct assistance funding to MOD and MOI. CSTC-A stated that it uses many sources of
information to assess that risk, including CM ratings, CSTC-A audits, and audits and reports from outside
agencies. CSTC-A also highlighted the shift in the mentoring and advising from an office-based model to a
functionally based model. Moreover, CSTC-A stated that they were aware of the low staffing levels in the CJ8
before this review was undertaken. While we acknowledge that CSTC-A mentors and advisors rate the financial
capabilities of offices within the ministry and CSTC-A’s CJ8 conducts audits of MOD and MOI financial records,
we do not believe that these elements constitute a comprehensive assessment of ministry capacity.
See Appendices II and III for full agency responses.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                   Page 13
APPENDIX I: FUNDING PROCESS FOR U.S. DIRECT ASSISTANCE TO THE ANSF

The United States provides funds directly to the MOD and MOI from the DOD ASFF. These funds are allocated
to CSTC-A. As part of the annual budget development process, the Afghan ministries identify expenditures for
the year that are eligible for direct assistance funding, in coordination with CSTC-A advisors. The MOF officially
requests direct assistance from CSTC-A for the upcoming year for all eligible expenditures that have been
identified and programmed into the final ministry budget request. In response, the CSTC-A Deputy
Commanding General issues a commitment letter stating the amount of money that will be provided by the
U.S. in the form of direct assistance. CSTC-A authorizes the disbursement of funding to the MOF through an
electronic funds transfer on a quarterly basis. According to the CSTC-A liaison to the MOF, the MOD and MOI
never control funds, but instead, the MOF allocates procurement authority on a quarterly basis to the
ministries for the amount agreed upon in the ministries’ budgets. Once a ministry has contracted for and
received goods or services from a vendor, the ministry sends a payment voucher to MOF provincial finance
offices. The MOF provincial office pays the vendor. Figure 2 illustrates the flow of U.S. direct assistance funding
for the ANSF.

Figure 2: Flow of U.S. Direct Assistance Funding for Afghan National Security Forces




Source: CSTC-A




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                       Page 14
APPENDIX II: COMMENTS FROM U.S. CENTRAL COMMAND 18


                                                     UNCLASSIFIED

                                         UNITED STATES CENTRAL COMMA NO
                                             71 1SSOlJTII UOlJNOARV BOUL EVA RD
                                        MACIJI LLAIR FORC I. IIAS~.. ~ l.OKIDA 33621 -~101




                                                                                             29 October 2013

               FOR: SPECIAL INSPECTOH GENERAL FOR AFGHANISTAN
                    RECONST RUCTION. 2530 CRYSTAL DRIVE. ARLINGTON. VA 22202-3940

               S UBJECT: Special Inspector General for Afghani sian Reconstruction (SIGAR) Report
                         on Direct Assistance: Risk Assessmenrs of MOl and MOO Capabi lity to
                         Manage and Account for Over $4 Bi ll ion in Direct Assistance Funding (U)

               REFERENCE: SIGAR Draft Repon on Direct Ass istance, October 2013. SIGAR- 14-X-
                          Specia l Projects

              I . (U) In response 10 Specia l Inspector General for A(ghanistnn Reconstruction (StGAR)
              Report on Direct Assistance, October 20 0. SI GM~ 14-X-SPECIAL PRCY.IECTS. U.S.
              Central Command (CENTCOM) provides the following for consideration.

              2. (U) Recommendation I : The Commander. U.S. Central Cunmwnd, arrange for an
              independent assessment thai wou ld comprehensively assess linancia l management
              capabil ities and risks within the Afghan Ministries of Defense and Interior and in re lation
              to the Afghan MOF.

                     a . (U) CENTCOM does not C<>ncur with SIGAR recommendation I. CENTCOM
                         does not distribute or provide accounting support to the Afghan Secu rity
                         Forces Fund (ASFF). In addition, CENTCOM does not have the authority or
                         resources to task a comprehensive audil between governments such as that
                         recommended.

                     b. (U) CENT COM does not obj~;t to rhe"'S IGAR recom1neridation for an
                        assessment or Afghan Govern men t Ministries financia l management
                        capabilities and risk, but given the scope of such an effort and the consent and
                        cooperation necessary from multiple Min istries, it would likely require an
                        Inter-Agency leve l review. prefaced with a Memorandum of Agreement
                        (MOl\) between the Afghan Ministries of Finance, Defense and Interior. and
                        include appropriate U.S. government stakeholders. such as the Departments of
                        Treasury and S tate.

              3. ( U) CENTCOM rccogni:les the inherent risks in the direct ass istance process. To
                 address these risks, CENTCOM has proactively supponed CSTC-A steps to improve
                 stofling levels to ensure they have the capaci ty to properl y till oversight
                 responsibilities for ANSF direct assistance funding. In addition. we s upport C STC-A


                                                    UNCLASSIFIED




1s The agency response to SIGAR's draft uses the term · recommendation" for what is defi ned as a · suggestion" in the fi nal
report.




SIGAR·14-12-5P Direct Assistance to Afghanistan 's Ministries of Defense and Interior                                Page 15
                                                     UNCLASSIFIED



                    efforts lo build Afghan Ministries of Defense and Inte rior capabilities through the
                    Ministry Advisory Group.

                4. (U) CENTCOM Point of Contaet for this action is COR Timothy G. Bellon. •



                                                           fJw~ -rvz~~DA._
                                                        · -ELAlN£ McCUS KER, SES
                                                          Director, Resources und Anal ysis




                                                    UNCLASSIFIED




SIGAR-14-12-5P Direct Assistance to Afghanistan's M inistries of Defense and Interior                      Page l.6
APPENDIX III: RESPONSE FROM COMBINED SECURITY TRANSITION COMMAND
– AFGHANISTAN 19


                                                          HEADQUARTERS
                                        COMBINED SECURITY TRANSITION COMMAND- AFGHANISTAN
                                                    MINISTERIAL ADVISORY GROUP
                                                        KABUL, AFGHANISTAN
                                                           APOAE09356

                   REPlY TO
                   ATTENTION OF
                    CSTC-A                                                                                     280CT2013


                    MEMORA DUM TIIRU United States Forces- Afghanistan (CJIG). APO AE 09356
                                     United States Central Command (CCIG). Mac Dill AFB. FL 33621

                    FOR Special Inspector General for Afghanistan Reconstruction, 2530 Crystal Drive, Arlington. VA
                    22202-3940

                    SUOJECT: CSTC-A MAG Management Comments to SIGAR Special Report: "Direct Assistance: DOD
                    lias Not Conducted Comprehensive Risk Assessments of MOl and MOD Capability to Manage and
                    Account For Over $4 Billion In Direct Assistance Funding" (SIGAR Special Report 14-X-SP).

                    REFER£ CE: Special Report 14-X-SP. dated OCT 2013. Special Inspector General for Afghanistan
                    Reconstruction (SIGAR).


                    I. The purpose of this memorandum is to provide management comments to the subject draft SIGAR
                    Specia l Report.

                    2. CSTC-A appreciates the time and eiTort SIGAR put into researching and producing this report. It is
                    clear from the report's contents that the auditors took to heart the wealth of data and background
                    information provided by individuals across the NTM-A and CSTC-A enterprise. It's important to
                    highlight some key points contained in the attached management comments:
                       a. CSTC-A docs conduct risk assessments of Mol and MoD capabilities to manage and account for
                          direct assistance. As a good steward ofresourees. CSTC-A continues to improve accountability
                          and oversight of direct contributions. and leverages many sources to assess the capabilities and
                          capacities ofG IRoA institutions to eiTectively plan. program and execute resources.
                       b. As CSTC-A approaches the transition from ISAF to RESOLUTE SUPPORT, the ministerial
                          advising model is evolving from an office-based to a functionally oriented advising model where
                          we will measure the eiTectivcncss of the systems within the ministry vice the individual office.
                       c. CSTC-A ident ified financ ial manpo"er and expertise shortfalls prior to the SIGAR visit. and has
                          taken numerous steps to address the shortfalls over the past few months. CSTC-A now appears to
                          be on the right manpower path to provide reasonable oversight over direct financial contributions.

                    3. Point of contact for this action is CPT Matthew E. French at DSN•• • • • • or via e-mail at




                                                                             K~-;~L·
                                                                            Major General. US Anny
                                                                            Commanding General
                    Encl
                    CSTC-A Management Comments




19The agency response to SIGAR’s draft uses the term “recommendation” for what is defined as a “suggestion” in the final
report.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                           Page 17
                                       CSTC-A MAG INSPECTION REPORT RESPONSE
                 ''Direct Assistance: DOD Has ot Conducted Comprehensive Risk Assessments of MOl and MOD
                        Capability to Manage and Account For Over $4 Billion In Direct Assistance Funding"
                                                (SIGAR Special Report 14-X-SP)

              1. Recommendation 2:
              The Commander, Combined Security Transition Command-Afghanistan, ensure that CSTC-A CJS
              advisors and mentors are included in the CM rating process and any financial management risk
              assessment for the MOl and MOD.

              a. CSTC-A response:
              CSTC-A concurs with comment. The Capability Milesto ne (CM) rating process was not developed as a
              risk assessment tool. Contrary to S IGAR's portrayal. CSTC-A conducts risk assessments of Mol and
              MoD capabilities to manage a nd account for direct assistance required by the USD(C) memo dated Feb
              20 11. As a good steward of resources, CSTC-A is continuing to improve the accountabil ity and increase
              the oversight of direct contributions based on its assessments of risk. CSTC-A uses many sources.
              including CM ratings, to assess the capabilities and capacities ofGIRoA institutions to effectively plan.
              program and execute resources. Other sources include CSTC-A generated audits as well as independent
              audits and reports from U.S., ISAF, NATO, internationa l and Afghan agencies, where available. CSTC-
              A is encouraging these independent agencies to augment the Joint Strategic Oversight Plan by identifying
              and tracking potential areas with less than desirable oversight.

              CSTC-A leverages all these assessments in working w ith the Ministries of Defense and Interior to ensure
              they execute international contribut ions for the A SF w ith transparency. accountability and oversight
              CSTC-A understands the importance of this effort and works to ensure International Donors have
              assurances that their contributions arc used effectively in sustaining the A SF.

              Key to this effort is CSTC-A ·s recent expansion of budgetary controls which govern the execution of
              direct contributions in the MOVMOD FY 1393 budget. As the direct contributions process has evolved
              and matured. CSTC-A has expanded the scope of what" s reviewed prior to the provision of funding and
              tightened the continuous reviews and controls applied after fund s arc provided. CSTC-A examines risk
              overall and then down to the 5-digit budget code to determine where direct assistance funding should be
              provided to develo p minister ial resource management functions. CSTC-A ·s criteria in determining which
              budget codes and activities to receive direct contributions include: historical execution rates,
              transparency, accountability and oversight, capabilities and capacities of the ministries as well as
              prioritization of requirements. The FY 1393 (Dec 20 13-Dee20 14) Commitment Letter between CSTC-A
              and the two security ministries is nearing completion. At nearly 20 pages in length, this commitment
              letter is by far the most comprehensive produced to date and, once implemented, will codify heretofo re
              unseen budgetary controls and transparency and accountability requirements. The additional manpower
              discussed in Recommendatio n 3 is a crit ical part of the increased transparency and accountability sought
              by the U.S. taxpayer and International donor community. CSTC-A will supply SIGAR with copies of the
              FY1393 commitment letters once signed .

              CM ratings have been used in conjunction with the Quarterly Strategic Assessment Report (QSAR), the
              Transition Provincial Outlook Report (TPOR), the Nationa l Defen se Authorization Act (NOAA) Section
               1230 Report and other USA and NATO repo rts to provide an a ssessment of capacity and capability within
              the individua l ministries. Ministeria l Development Plans (MDP) and CM ratings were designed as
              evolving systems that would be periodically evaluated and modified to ensure they remained relevant to
              the evolving organizational and ministerial development campaign. The MDPs and resultant CM ratings
              assess the ability of a directorate to execute their stated roles and responsibi lities under varying degrees of
              coalition supervision. Restructures and organi7.ational realignments of functions occur that often require
              revision of both the Ministerial Development Plans as well as the ratings. The overall rating could be
              effected by multiple events, including; transition of Afghan personnel. transitio n of advisors, and/or

                                                                Page I of3




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                             Page 18
                                       CSTC-A MAG INSPECTION REPORT RESPONSE
                 ''Direct Assistance: DOD Has Not Conducted Comprehensive Risk Assessments of MOl and MOD
                        Capabil ity to Manage and Account For Over $4 Billion In Direct Assistance Funding"
                                                 (SIGAR Special Report 14-X-SP)

              identification of new requirements levied on a directorate. While the ultimate goal of the MDP is for an
              office to operate independent of coalition support, usc of a capability scale allows the coalition to alter the
              level of advisor support based on competence. This allows the coalition to mitigate risk by reallocating
              personnel resources to areas with lower capability milestone ratings.

              As CSTC-A approaches the transition from ISAF to RESOLUTE SU PPORT. the ministerial advising
              model is evolving from an office-based to a functionally oriented advising model where we will measure
              the effectiveness of the systems within the ministry vice the office. This will include the elimination of
              certain CM ratings aligned with specific offices as we roll the office into an overall effect to be
              monitored. The first step of this was the issue ofNTM -A/CSTC-A FRAGO 13-300 - Interim CSTC-
              A/MAG Commander's Direction and Guidance on 23 July 13. Further action includes a complete MDP
              review by both MoD and Mol MAGs, and imminent release of the CSTC-A/MAG BASEORD covering
              Phases II IB and IIIC of the ISAF mission (concluding 31 Dec 14).

              CSTC-A 's primary means of reporting overall functional capacity within the ministries is the Quarterly
              Strategic Assessment Report (QSAR). This assessment is infonned in part by CM ratings; however is
              focused on collective functionality within the ministries within the four strategic enterprise functions:
              Sustainment (logistics. procurement & resource management), IGffAO, Strategy & Policy, and Human
              Resources. Reviews of the assessments provided by the CM ratings have revealed that the information
              provided no longer support the commander's assessment requirements or advising methods as we
              transition. Current planning has identified 13 critical A SF development tasks which will further focus
              advising efforts. Two of these tasks are directly related to financial management:
                  I. Assist the AS! to develop functioning systems that manage and allocate resources (including
                     human capital) in an environment of improved transparency. accountability, and integrity to
                     sustain the ANSF (OPR CSTC-A/MAG ; OSR: CJIATF-A)
                  2. Implement financial and resource management control measures to improve effectiveness of
                     AS II/\ SF counter-corruption efforts, improve ASl accountability of resources, and sustain
                     coalition and IC support (OPR: CSTC-A/ MAG ; OSR CJIATF-A)

              ISAF subordinate commands will develop sub-tasks that support the primary objective. including
              appropriate Measures of Effectiveness (MoE) and Measures of Performance (MoP) to evaluate progress
              within the Afghan Ministries. Coalition-led Training. Advis ing. and Assistance (TAA) activities will be
              tailored to support the Afghan Ministries to fu rther develop and refine capability to achieve functional
              requirements defined by the objectives. The Director of the Resource Management Pillar, in conjunction
              with the CSTC-A CJ8, as a stakeholder in the improvement of financial capability and capacity within
              both MoD and Mol, will assist in development of the sub-task requirements and assist MoE and MoP
              definition.

              On 26 July 2013, the Director of Resource Management, in conjunction with the key advisors from the
              Ministry of Defense and Ministry of Interior developed a set of measures of effectiveness and measures of
              performance that would help reflect capability and capacity development of key financial management
              functions such as budget development and budget execution. A beta test on these measures is currently
              underway.

              CSTC-A remains committed to being a good steward of valuable resources. The Coalition's responsible
              management ofta:~:payers· dollars involves active measures. well beyond the usc ofCM ratings, to
              maintain oversight and accountability. CSTC-A welcomes the insight and recommendations of outside


                                                                Page 2 of3




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                            Page 19
                                       CSTC-A MAG INSPECTION REPORT RESPONSE
                 " Direct Assistance: DOD Has ot Conducted Comprehensive Risk Assessments of MOl and MOD
                        Capability to Manage and Account For Over $4 Billion In Direct Assistance Funding"
                                                (SIGAR Special Report 14-X-SP)

              organizations to infonn our assessments and reline our processes as we work with our Afghan partners to
              ensure appropriate allocation of resources.

              2. Recommendation 3:
              The Commander, Combined Security Transition Command-Afghanistan, reassess CSTC-i\ CJ8 staffing
              levels to ensure the branch has the capacity to properly fulfil l its oversight responsibil ities for ANSF
              direct assistance funding.

              a. C.'iTC-A response:
              CSTC-A concurs with comment. Prior to the SIGAR fieldwork visit in May/June 2013. CJ8 had already
              identified manpower and expertise shortfalls, especially in audit capabilities and capacity. CSTC-A
              shared these concerns with the DoD IG during their visit earlier in May 2013. The senior member of the
              DoD IG team, Mr. Kenneth Moorefield, agreed that we needed to leverage the large civilian auditor pool
              across the DoD to create audit capacity within CSTC-i\ CJ8 . We appreciate that the SJGAR recognizes
              the capability and capacity gap as well.

              The downward trend for CSTC-A CJ8 manning began earlier in 2013, as a result of boots-on-ground
              ( BOG) decisions made more than a year ago. Over the course of20 13, all four Services have declined or
              delayed backfilling vacant billets, in anticipation of the larger drawdown in 2014. and Coalition partners
              have reduced force levels, leaving numerous capacity gaps and workload challe nges in the CJ8. In the
              interim, CSTC-A has identified and rc-missioncd inbound Finance/Resource Management personnel
              slated for positions being eliminated elsewhere in Afghanistan. often with the help of CENTCOM J8.
              These local actions have helped alleviate some of the immediate manning shortfall concerns magnified by
              external pressures to decrease 130G theater-wide.

              CSTC-A leadership has taken numerous steps to address the manning and expertise shortfalls within the
              CJ8. The CE TCOM J8 has been fully supportive of the CSTC-A CJ8 manpower/manning shortfalls
              and has been an active participant in overcoming the manpower struggles for the future. To date. CSTC-
              A has fonnally pursued additional manpower via: two requests for assistance (RFA), a request for forces
              (RFF). and a joint manning document (JMD) out-of-cycle (OOC) change request to realign 18 vacant
              billets from elsewhere in CSTC-A.

              i\s of I 8 October 2013, it appears that the Joint Staff has approved CSTC-A 's request for civilian
              auditors. Meanwhile, CSTC-i\ 's JMD OOC change request appears headed for approval, and we are
              hopeful these updates/changes will appear in EJMAPs before the end of October. Th is JMD out of cycle
              change request is designed to fix I 5 billet descriptions to renect the proper service, experience and duty
              description remarks to obtain the right skill sets. CSTC-A ·s RFF currently awaits Joint Staff sourcing.
              Once the JMD OOC change request has been completely processed, and the RFF has been sourced. the
              CJS will have the capacity and capabilities necessary to perfonn its enduring Resolute Support Mission-
              that is to say. justify. account for. and maintain fiscal control of approximately $65 billion in ASH' across
              FY 08- FY IS.


              APPROVED BY:                                              PREPARED BY:
                                                                        Carol C. Yannarclla
                                                                        Col. RM director (ED Sustainment)
                                                                                            Management.



                                                               Page 3 of3




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                                          Page 20
APPENDIX IV: ACKNOWLEDGMENTS

Major SIGAR contributors to this report were Jeremy Brown, Monica Brym, and Nicolaus R. Heun. Technical
support was provided by Kim Corthell and Larry Dare.




SIGAR-14-12-SP Direct Assistance to Afghanistan’s Ministries of Defense and Interior                Page 21
                             The mission of the Special Inspector General for Afghanistan
         SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                             reconstruction of Afghanistan by conducting independent and
                             objective audits, inspections, and investigations on the use of
                             taxpayer dollars and related funds. SIGAR works to provide accurate
                             and balanced information, evaluations, analysis, and
                             recommendations to help the U.S. Congress, U.S. agencies, and
                             other decision-makers to make informed oversight, policy, and
                             funding decisions to:
                                      •   improve effectiveness of the overall reconstruction
                                          strategy and its component programs;
                                      •   improve management and accountability over funds
                                          administered by U.S. and Afghan agencies and their
                                          contractors;
                                      •   improve contracting and contract management
                                          processes;
                                      •   prevent fraud, waste, and abuse; and
                                      •   advance U.S. interests in reconstructing Afghanistan.



Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                             site (www.sigar.mil). SIGAR posts all publically released reports,
 Reports and Testimonies     testimonies, and correspondence on its Web site.




                             To help prevent fraud, waste, and abuse by reporting allegations of
 To Report Fraud, Waste,     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
and Abuse in Afghanistan     hotline:

Reconstruction Programs               •   Web: www.sigar.mil/fraud
                                      •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-601-4065




                             Public Affairs Officer
            Public Affairs            •   Phone: 703-545-5974
                                      •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                      •   Mail: SIGAR Public Affairs
                                          2530 Crystal Drive
                                          Arlington, VA 22202
